No. 20-1088

In the Supreme Court of the Anited States

DAVID CARSON,
as parent and next friend of O.C., et al.,

Petitioners,
ve

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.
CERTIFICATE OF SERVICE

I, Nicholas J. Bronni, counsel for Amici Curiae, States of Arkansas, et al., hereby
certify that on this day, March 11, 2021, pursuant to this Court’s Rule 29.3 and its
order regarding filings of April 15, 2020, I caused the Brief of Amici Curiae States of
Arkansas, et al., in Support of Petitioners to be served by email on the following coun-

sel, each of whom agreed to accept electronic service:

Michael E. Bindas Sarah Forster

Institute for Justice Christopher Taub

mbindas@ij.org Office of the Maine Attorney General
Counsel for Petitioners sarah.forster@maine.gov

christopher.c.taub@maine.gov
Counsel for Respondent

I further certify that all parties required to be served have been served.

 
NICHOLAS J. BRONNI

Arkansas Solicitor General
Counsel of Record

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL

323 Center Street, Suite 200

Little Rock, Arkansas 72201

(501) 682-6302

nicholas.bronni@arkansasag.gov
